                            The WtW program was authorized by the Balanced Budget Act of
 Background                 1997 to move hard-to-employ recipients of Temporary Assistance
                            to Needy Families (TANF) into unsubsidized employment and
economic self-sufficiency. The Act authorized $3 billion for WtW grants in Fiscal Years
1998 and 1999. The Department of Labor, Employment and Training Administration (ETA)
is awarding $711.5 million to selected Private Industry Councils (PICs), political
subdivisions, or private entities through the WtW Competitive Grants Program. The
competitive grants are designed to develop and implement creative and innovative approaches
to enhance a community’s ability to achieve WtW program goals. At least 70 percent of
WtW funds must be spent on hard-to-employ individuals, and the remainder on individuals
with characteristics of long-term welfare dependency.

Three rounds of competitive grant awards have been planned, of which two have been
executed. The first round of competitive grants totaling $199 million was awarded to 51
applicants in June 1998. In January 1999, the second round of grants totaling $273 million
was awarded to 75 applicants. WtW competitive grant funds must be spent within the grant
period which may not exceed 3 years. The average grant period for the 51 first-round
grantees was 30 months.

                                 Grantees’ implementation of their competitive grant
 Slow                            programs was slow during the first 9 months. As of March
 Implementation                  31, 1999, with 30 percent of the average grant period
                                 elapsed, the 51 first-round grantees reported that just 6
percent (8,335) of the planned number of participants had been served; 2 percent (793) of
planned placements in unsubsidized employment had been made; and only 10 percent ($20
million) of the funds awarded during the first round of grants had been spent.

Thus, for the 51 first-round grantees to meet the levels of performance specified in their
grant agreements during the 21 months remaining in the average grant period, they would
need to:

    C   serve an additional 120,169 TANF recipients or noncustodial parents,

    C   place an additional 40,011 WtW participants in unsubsidized employment, and

    C   spend the remaining $179 million of grant funds.

With less than 2 years remaining in the average grant period, the above analysis raises
concerns that many of the 51 first-round competitive grantees may not be able to achieve
planned levels of service or use all of the grant funds.

AGENCY COMMENTS: The Department of Labor has been working with the Congress to
simplify the WtW eligibility criteria mandated by the authorizing statute and to extend the
length of the program. This would significantly accelerate expenditures and enrollments.


U.S. Department of Labor – Office of Inspector General – Final Report                  Page 2
                              As of March 31, 1999, grantees were making varying degrees
Implementation                of progress in implementing their programs between the
Progress Varies               period from the grant award through March 31, 1999.
                              Progress was measured by continuous increases in three
                              areas—enrollment, expenditures, and placements.

   C   Good Progress Is Being Made: Nine (47 percent) of the 19 grantees in our sample
       made good progress in at least 2 of the 3 areas.

       These nine grantees identified the following as factors which contributed to their
       early success. Seven stressed the importance of establishing strong relationships
       with employers. Six of the nine grantees took the initiative to develop strong
       cooperative relationships or joint efforts with their local TANF offices. The other
       three actually administered the WtW Formula Grant Program and local TANF
       programs under one organizational umbrella. These three grantees reported several
       advantages to this type of structure. The most important advantage reported was the
       control over the flow of eligible individuals. Moreover, grantee managers said that
       this arrangement provided the opportunity to develop service plan matrices that
       identified the most appropriate source of funds for each of the various services
       TANF recipients would need to make the transition from welfare to work.

   C   Little Progress Being Made: Eight (42 percent) of the 19 grantees in our sample
       reported little measurable progress in the three areas—enrollment, expenditures,
       and placements, during the first 9 months. Of these, five demonstrated increases in
       just one area and three reported no significant increases in any of the areas.

   C   Still Not Operational: Two of the 19 grantees were not operational at the time of
       our audit. One of these, a rural grantee, had experienced significant delays finding
       an employer to relocate to the area which would accommodate the entire participant
       population. This was a significant part of the grant plan, but had fallen through at the
       last minute. However, on August 26, 1999, the grantee reported that recent progress
       had been made with a different employer and, with the expressed commitment of
       financial support by state and local economic development organizations, the
       program could be operational within 6 to 9 months from that date. The other grantee
       was still experiencing significant delays to reprocure service providers (the grantee
       had initially obtained them through noncompetitive means), and to secure a
       permanent location for the project. At the time of our audit, the grantee was
       awaiting ETA’s approval of its revised grant agreement.




U.S. Department of Labor – Office of Inspector General – Final Report                  Page 3
AGENCY COMMENTS: In instances where round-one grantees have shown little progress
or lack of operation the Department of Labor and representatives from the Rutgers
University John J. Heldrich Center for Workforce Development made site visits. The visits
resulted in grant modifications necessary to speed implementation, and in some instances,
the agreed-upon deobligation of a portion of grant funds for use in funding round-three
competitive grants.

                                   Thirteen (68 percent) of the 19 grantees cited various
 Problems Locating
                                   difficulties associated with locating and serving eligible
 Eligible Individuals
                                   individuals.

    C   Difficulties Finding Eligible Individuals Meeting the 70 Percent Criteria.
        Thirteen (68 percent) of the grantees stated that they were not getting enough
        referrals of eligible individuals meeting the 70 percent criteria. Ten of the 13
        grantees stated that the eligibility criteria were too restrictive. Specifically cited
        were the criteria that excluded from the 70 percent portion those individuals who
        have completed secondary school or earned a certificate of general equivalency, and
        still have low reading or math skills. This eliminates a significant number of needy
        individuals from accessing services under the 70 percent provision.

    C   Difficulties Locating and Recruiting Noncustodial Parents. Eight of the
        17 grantees in our sample that had program components to serve noncustodial
        parents reported difficulties as follows:

            1.   Eight grantees said that they had problems locating and recruiting
                 noncustodial parents. Two grantees specifically said that noncustodial
                 parents often believed that recruitment for WtW was a “sting” operation. In
                 addition, because the noncustodial parents do not receive financial aid from
                 TANF, there are no sanctions if they refuse to participate in WtW
                 programs.

            2.   Noncustodial parents are difficult to locate because the local TANF office
                 either does not have sufficient information about them or must honor
                 privacy laws which prohibit disclosure of this information. Grantees must
                 then solicit information from the courts.

        AGENCY COMMENTS: It should be noted that, at the Department of Labor’s
        request, the Domestic Policy Council has convened the Department of Health and
        Human Services and Child Support Enforcement to seek ways of making
        noncustodial parent information more readily available while still protecting privacy
        rights.


U.S. Department of Labor – Office of Inspector General – Final Report                 Page 4
    C   Difficulties Spending WtW Funds Due to the “Work First” Requirement.
        WtW emphasizes a “work first” approach to serving participants. Six (32 percent)
        of the 19 grantees in our sample reported that spending WtW funds had been slow
        because the “work first” requirement hindered the delivery of service. Some
        grantees mentioned that this was particularly true in cases where enrollees had
        multiple barriers to employment.

                               Because the WtW competitive grant program was an entirely
 Outmoded or
                               new concept, the organizations competing for the first round
 Incomplete
                               of competitive grant awards were asked to develop program
 Plans
                               plans without the benefit of prior experience. Thus, grantee
                               plans for serving TANF recipients, placing them into
unsubsidized employment, and spending grant funds, reflected the ideal rather than the real
situations they faced when attempting to start their programs. Moreover, we found that many
of the program plans included in the approved grant agreements lacked quarterly goals against
which to measure performance. At the time of our audit of the 19 grantees:

    •   of the 15 that had quarterly plans for participants served, only 4 were meeting their
        plans;

    •   of the 8 that had quarterly plans for participants placed in unsubsidized employment,
        none were meeting their plans; and

    •   of the 16 that had quarterly plans for expenditures, only 1 was meeting its plan.


                               *   *   *    *   *   *    *   *

We appreciate the excellent cooperation of Mr. Dennis Lieberman, Director, ETA Welfare-
to-Work Office, his staff, and the grantees visited during our audit.

If you have any questions or would like additional information, please call me or
Roger Langsdale, Regional Inspector General for Audit-Philadelphia, at (215) 656-2300.




U.S. Department of Labor – Office of Inspector General – Final Report                  Page 5
                                       APPENDIX A

                    OBJECTIVES, SCOPE, AND METHODOLOGY

                          The overall audit objective was to determine the progress made by
 Objectives
                          selected first-round competitive grantees toward implementing
                          the WtW grant program during the first 9 months of grantee
operations. Our specific objectives were to determine:

    •   whether the numbers of participants served and placed in unsubsidized employment,
        and the portion of grant funds spent, met planned levels;

    •   what successes and obstacles grantees encountered while implementing their
        program; and

    •   what relationships and degree of cooperation were developed between the grantee
        and the local TANF agency.


                            Our audit covered 19 (37%) of the 51 first-round competitive
 Scope
                            grantees. These 19 grantees received $84 million (42%) of the
                            $199 million awarded following the first round of competition.
(See Appendix B for a list of the grantees and the grant awards.)


                           The 19 grantees were selected judgmentally. Fieldwork for the
 Methodology
                           grantees was conducted from May 1999 through July 1999. We
                           interviewed the grantee and the local TANF agency personnel to
discuss their experiences during program implementation. Our discussions included the
following topics:

    C   successes and obstacles grantees encountered while implementing their programs,

    C   levels of coordination and cooperation between WtW and local TANF agencies, and

    C   participants served and placed and grant funds spent during the first three quarters of
        program operations.


The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.


U.S. Department of Labor – Office of Inspector General – Final Report                   Page 6
                                     APPENDIX B




         WTW FIRST-ROUND COMPETITIVE GRANTEES                             GRANT

    1.   City of Detroit                                                $4,860,633
    2.   City of Little Rock                                            $5,000,000
    3.   Corporation for Ohio Appalachian Development                   $5,000,000
    4.   County of Union                                                $5,000,000
    5.   Goodwill Industries of Middle Georgia                          $5,300,000
    6.   Hampton University                                             $4,898,000
    7.   Houston Works                                                  $5,000,000
    8.   Hudson County                                                  $4,914,297
    9.   Indianapolis PIC                                               $5,000,000
   10.   Louisville and Jefferson County PIC                            $4,999,898
   11.   Milwaukee County PIC                                           $4,262,054
   12.   Northern Community Investment Corporation                      $3,132,518
   13.   Philadelphia PIC                                               $4,351,247
   14.   Pinellas Workforce Development Board                           $1,500,000
   15.   River Valley Resources                                         $5,000,000
   16.   Southeastern Community College                                 $2,638,601
   17.   Total Action Against Poverty                                   $2,736,272
   18.   United Way of Central Alabama                                  $4,997,966
   19.   The Work Place, Inc.                                           $5,000,000
                  Total                                                 $83,591,486




U.S. Department of Labor – Office of Inspector General – Final Report                 Page 7
